Record Press Inc., 229 West 36th Street, New York, N.Y. 10018 •
Tel: (212) 619-4949• Fax No. (212) 608-3141

88503
STATE OF NEW YORK.
AFFIDAVIT OF SERVICE

SS:
COUNTY OF NEW YORK

Howard Daniels being duly sworn. deposes and says that deponent is not party to the action. and is over 18 years of age.
That on the 21st day of September 2021 deponent served 3 copies of the within
BRIEF OF THE Alv.lERICAN CML LIBERTIES UNION
AND NEW YORK CIVIL LIBERTIES UNION AS
Alv.lICICURIAEINSUPPORTOFRESPONDENT

upon the attorneys at the addresses below. and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Barbara D. Underwood
Division of Appeals 6 Opinions.
Office of the Attorney General
28 Liberty Street
New York. New York 1 □ 005
(212) 416-8020

Paul 0. Clement
Kirkland 6 Ellis LLP
13 □ 1 Pennsylvania Avenue. NW
Washington. □ C 20004
(202) 388-5000

Attorneys for Pe!llioner
Attorneys for Respondent

I. Howard Daniels. declare under penalty of perjury under the laws of the United States of America that the foregoing is true and
correct. executed on September 21. 2021. pursuant to Supreme Court Rule 2S.5(c). All parties required to be served. have been

dk;J

served.

Q~

Howard Daniels

Sworn to me this

September 21. 2021
NADIA R. OSWALD HAMID
Notary Public. State of New York
No. OIOSSIOl3SS
Uualified in Kings County
Co

Case Name: New York State Rifle 6 Pistol Association. Inc. v.
Bruen
Docket/Case No. 20-843

